No. 20-1158
IN THE

Supreme Court of the United States
THE NORTH AMERICAN MISSION BOARD OF THE
SOUTHERN BAPTIST CONVENTION, INC.,
Petitioner,
v.
WILL MCRANEY,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

CERTIFICATE OF SERVICE

I, Matthew T. Martens, a member of the bar of this Court, hereby certify that, on
this 28th day of May, 2021, all parties required to be served have been served copies of
the Reply Brief for Petitioner in this matter by overnight courier to the address below.
SCOTT E. GANT
BOIES SCHILLER FLEXNER LLP
1401 New York Ave., NW
Washington, DC 20005
(202) 237-2727
sgant@bsfllp.com

MATTHEW T. MARTENS
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
matthew.martens@wilmerhale.com

